No. 19-369

In the Supreme Court of the United States
FORD MOTOR COMPANY,
Petitioner,
v.
ADAM BANDEMER,
Respondent.
On Petition for a Writ of Certiorari to
the Supreme Court of Minnesota
BRIEF OF THE CHAMBER OF COMMERCE OF
THE UNITED STATES OF AMERICA, THE
NATIONAL ASSOCIATION OF MANUFACTURERS, AND THE AMERICAN TORT REFORM ASSOCIATION AS AMICI CURIAE IN
SUPPORT OF PETITIONER
ANDREW J. PINCUS
Counsel of Record
ARCHIS A. PARASHARAMI
DANIEL E. JONES
Mayer Brown LLP
1999 K Street, NW
Washington, DC 20006
(202) 263-3000
apincus@mayerbrown.com
Counsel for Amici Curiae
(additional counsel listed on signature page)

i
TABLE OF CONTENTS
Page
TABLE OF AUTHORITIES..................................... iii
INTEREST OF THE AMICI CURIAE ...................... 1
INTRODUCTION AND SUMMARY OF
ARGUMENT ........................................................ 3
ARGUMENT .............................................................. 5
I. Specific Personal Jurisdiction Requires A
Substantial Causal Connection Between
The Defendant’s Forum Contacts And The
Asserted Claim. ................................................... 5
A. The Relationship Between The Defendant’s Forum Activity And The Asserted Claim Must Be Sufficiently
Significant To Create A Substantial
Connection With The Forum State. ............. 6
1. Specific jurisdiction rests on the
forum’s legitimate interest in regulating the defendant’s underlying
conduct. ................................................... 7
2. The standard for assessing the
sufficiency of the defendant’s forum contacts. .......................................... 9
B. The Expansive Standard Applied Below Extended Minnesota’s Authority
Far Beyond The Bounds Permitted By
The Constitution. ........................................ 13
II. Exercising Specific Jurisdiction Over Matters That Do Not Relate Substantially To
A Defendant’s Forum Contacts Harms
Businesses, Courts, And The Federal System...................................................................... 15

ii
TABLE OF CONTENTS—continued
Page
A. Overly Expansive Approaches To Jurisdiction Impose Greater Uncertainty
On Businesses. ............................................ 16
B. Permitting Specific Jurisdiction Without A Substantial Connection Between
The Forum State And The Claim
Would Intrude On Other States’ Sovereignty........................................................ 18
CONCLUSION ......................................................... 19

iii
TABLE OF AUTHORITIES
Page(s)
Cases
Adv. Tactical Ordnance Sys., LLC v.
Real Action Paintball, Inc.,
751 F.3d 796 (7th Cir. 2014) ................................ 15
BNSF Railway Co. v. Tyrrell,
137 S. Ct. 1549 (2017) ............................................ 3
Bristol-Myers Squibb Co. v. Superior
Court,
137 S. Ct. 1773 (2017) .................................. passim
Burger King Corp. v. Rudzewicz,
471 U.S. 462 (1985) ........................................ 12, 17
Daimler AG v. Bauman,
571 U.S. 117 (2014) ...................................... passim
Ford Motor Co. v. Montana Eighth
Judicial Dist. Ct.,
No. 19-368 (filed Sept. 18, 2019) ........................... 5
Goodyear Dunlop Tires Operations, S.A.
v. Brown,
564 U.S. 915 (2011) ................................................ 8
Hertz Corp. v. Friend,
559 U.S. 77 (2010) ................................................ 16
Int’l Shoe Co. v. Washington,
326 U.S. 310 (1945) .................................. 2, 7, 8, 10
J. McIntyre Machinery, Ltd. v. Nicastro,
564 U.S. 873 (2011) .................................... 8, 16, 17
Walden v. Fiore,
571 U.S. 277 (2014) ...................................... passim

iv
TABLE OF AUTHORITIES—continued
Page(s)
World-Wide Volkswagen Corp. v.
Woodson,
444 U.S. 286 (1980) ...................................... passim
Other Authorities
Carol Rice Andrews, The Personal Jurisdiction Problem Overlooked in the
National Debate About “Class Action
Fairness,” 58 S.M.U. L. Rev. 1313
(2005) .................................................................... 16

INTEREST OF THE AMICI CURIAE
The Chamber of Commerce of the United States
of America is the world’s largest business federation,
representing 300,000 direct members and indirectly
representing the interests of more than three million
companies and professional organizations of every
size, in every industry sector, and from every region
of the country. The Chamber represents the interests
of its members in matters before the courts, Congress, and the Executive Branch. To that end, the
Chamber regularly files amicus curiae briefs in cases
that raise issues of concern to the Nation’s business
community, and has participated as amicus curiae in
numerous cases addressing personal jurisdiction, including Bristol-Myers Squibb Co. v. Superior Court
(“BMS”), 137 S. Ct. 1773 (2017), and Walden v. Fiore,
571 U.S. 277 (2014).1
The National Association of Manufacturers
(NAM) is the largest manufacturing association in
the United States, representing small and large
manufacturers in every industrial sector and in all
50 states. Manufacturing employs more than 12 million men and women, contributes $2.25 trillion to the
U.S. economy annually, has the largest economic impact of any major sector and accounts for more than
three-quarters of all private-sector research and development in the nation. The NAM is the voice of the
Pursuant to Rule 37.6, amici affirm that no counsel for a party authored this brief in whole or in part and that no person
other than amici, their members, and their counsel made a
monetary contribution to its preparation or submission. Counsel of record for both parties received notice at least 10 days
prior to the due date of the intention of amici to file this brief.
All parties consented to the filing of the brief.
1

2
manufacturing community and the leading advocate
for a policy agenda that helps manufacturers compete in the global economy and create jobs across the
United States.
The American Tort Reform Association (ATRA) is
a broad-based coalition of businesses, corporations,
municipalities, associations, and professional firms
that have pooled their resources to promote reform of
the civil justice system with the goal of ensuring
fairness, balance, and predictability in civil litigation.
Many of amici’s members conduct business in
States other than their State of incorporation and
State of principal place of business (the forums in
which they are subject to general personal jurisdiction, see Daimler AG v. Bauman, 571 U.S. 117, 137
(2014)). They therefore have a substantial interest in
the rules governing the extent to which a State can
subject nonresident corporations to specific personal
jurisdiction.
Subjecting corporations to specific jurisdiction for
claims that lack the requisite relation to the forum
State would eviscerate the due process limits on personal jurisdiction recognized by this Court in numerous cases dating back to International Shoe Co. v.
Washington, 326 U.S. 310 (1945)—and could well expose corporations that do business nationwide to
what amounts to general personal jurisdiction in all
fifty States.
Amici file this brief to explain that the decision
below is irreconcilable with this Court’s precedents
and would have harmful consequences for companies
that, like petitioner, conduct activities or have relationships with entities in many States. The Court

3
should grant the petition to address this important
issue.
INTRODUCTION AND
SUMMARY OF ARGUMENT
This Court in recent years has reined-in lower
courts’ expansive views of general personal jurisdiction. It held in Daimler that general jurisdiction is
available only where a “corporation’s ‘affiliations
with the State are so “continuous and systematic” as
to render it “essentially at home in the forum State,”
which—absent unusual circumstances—restricts
general jurisdiction to a corporation’s State of incorporation and State of principal place of business. 571
U.S. at 127 (quotation marks omitted). And it reaffirmed that holding in BNSF Railway Co. v. Tyrrell,
137 S. Ct. 1549 (2017), rejecting the Montana Supreme Court’s narrow interpretation of Daimler.
The Court’s rejection of lower court decisions
“stretch[ing] general jurisdiction beyond limits traditionally recognized” means that “general jurisdiction
has come to occupy a less dominant place in the contemporary [personal jurisdiction] scheme.” Daimler,
571 U.S. at 132-33. Instead, specific jurisdiction typically provides the basis for lower courts’ adjudicatory
authority.
The linchpin of specific jurisdiction is “the ‘relationship among the defendant, the forum, and the litigation.’” Daimler, 571 U.S. at 133. “For a State to
exercise jurisdiction consistent with due process, the
defendant’s suit-related conduct must create a substantial connection with the forum State.” Walden,
571 U.S. at 284 (emphases added; quotation marks
omitted). In BMS, the Court explained that this
standard must be applied on a claim-by-claim basis:

4
the defendant’s suit-related conduct must create a
connection with the forum State for “the specific
claims at issue.” 137 S. Ct. at 1781.
But, as the holding below demonstrates, some
lower courts are responding to this Court’s reaffirmation of the limited availability of general jurisdiction by interpreting the “substantial connection”
standard to require almost no connection between
the defendant’s activities within the State and the
claims asserted in the litigation—effectively converting specific jurisdiction into a species of general jurisdiction.
This Court’s intervention is needed to provide essential guidance to lower courts regarding the core of
the specific jurisdiction test: how to determine
whether a defendant’s activities within the forum are
sufficiently related to the plaintiff’s claim to permit
the exercise of specific jurisdiction. In other words,
what standard should courts apply in determining
whether the facts of a particular case provide the required “substantial connection” to the forum.
The petition explains in detail (at 11-22) the conflicting approaches lower courts currently take. And
this case presents an excellent vehicle for elucidating
the proper test, because the court below allowed respondent to maintain a lawsuit against Ford in Minnesota even though all of Ford’s conduct that allegedly gave rise to his claims occurred outside the
State.
The impermissibly sweeping approach to specific
personal jurisdiction applied below does not simply
nullify this Court’s precedent. It also imposes new
and unwarranted burdens on businesses, the courts,
and the federal system. If permitted to stand, that

5
approach means that companies that do business in
a large number of States would have no ability to
predict where, and to what extent, they might be
haled into court. States would be newly empowered
to regulate conduct that occurred entirely outside
their borders—contrary to the principles of federalism that animate this Court’s personal jurisdiction
precedents. Moreover, the court’s authority to exercise personal jurisdiction over a defendant is an issue
in every case, and the experience of amici’s members
is that, despite this Court’s recent decisions, plaintiffs’ forum-shopping remains rampant and the question of what standards should be applied to assess
specific personal jurisdiction therefore arises with
extraordinary frequency. Indeed, it is telling that
Ford alone has simultaneously filed two petitions
presenting the same issue. See Ford Motor Co. v.
Montana Eighth Judicial Dist. Ct., No. 19-368 (filed
Sept. 18, 2019).
The Court should grant review to prevent these
harmful consequences and resolve the conflict on this
fundamental issue that arises with great frequency.
ARGUMENT
I.

Specific Personal Jurisdiction Requires A
Substantial Causal Connection Between
The Defendant’s Forum Contacts And The
Asserted Claim.

This case presents a critically-important question that this Court did not address in BMS: what
standard should courts apply to determine whether
contacts between a defendant and the forum State
are sufficiently related to a claim to support specific
jurisdiction. In the absence of guidance from this

6
Court, the lower courts have adopted conflicting approaches. See Pet. 11-22.
This Court’s precedents provide a clear path for
further delineation of the proper standard for determining whether a claim has the necessary “substantial connection” with the forum. They establish that
the defendant must purposefully engage in forum activity that is a cause of the asserted claim and that
also has a sufficiently significant relationship to that
claim. And the facts of this case will enable this
Court to illustrate the application of that test, because they fall far short of satisfying these requirements.
A. The Relationship Between The Defendant’s Forum Activity And The Asserted
Claim Must Be Sufficiently Significant
To Create A Substantial Connection
With The Forum State.
This Court has consistently held that in order for
an exercise of specific jurisdiction to comport with
due process, “the defendant’s suit-related conduct
must create a substantial connection with the forum
State.” Walden, 571 U.S. at 284 (emphasis added).
This substantial connection is required to ensure
that the forum State has a legitimate interest in regulating the defendant’s conduct on which the claim is
based. And the Court should grant review to clarify
that in order to satisfy this requirement, there must
be (i) a meaningful causal connection between the defendant’s forum activity and the asserted claim; and
(ii) the forum State must have a substantial connection to the claim relative to any connection other
States may have.

7
1. Specific jurisdiction rests on the forum’s
legitimate interest in regulating the defendant’s underlying conduct.
Explaining why specific jurisdiction comports
with due process, the International Shoe Court observed that when “a corporation exercises the privilege of conducting activities within a state, it enjoys
the benefits and protection of the laws of that state.”
326 U.S. at 319. “The exercise of that privilege,” the
Court reasoned, “may give rise to obligations; and, so
far as those obligations arise out of or are connected
with the activities within the state, a procedure
which requires the corporation to respond to a suit
brought to enforce them can, in most instances, hardly be said to be undue.” Ibid. (emphasis added).
The Court went on to conclude that Washington’s
exercise of specific jurisdiction over the defendant
was permissible because the defendant had engaged
in activities within the State and “[t]he obligation
which is here sued upon arose out of those very activities,” making it “reasonable and just * * * to permit
the state to enforce the obligations which [the defendant] ha[d] incurred there.” Id. at 320 (emphases
added).
The International Shoe framework thus rests on
the principle that due process permits a defendant to
be haled into court on a specific jurisdiction theory
only for claims that arise out of “the very activities”
that the defendant engaged in within the forum
State, or that enforce the “obligations” that the defendant incurred in the State—because of the forum’s legitimate interest in regulating a corporation’s activities within the forum.

8
This Court has repeatedly reaffirmed that rationale for specific jurisdiction. In J. McIntyre Machinery, Ltd. v. Nicastro, for example, the plurality
opinion contrasted specific jurisdiction with general
jurisdiction. General jurisdiction allows a State “to
resolve both matters that originate within the State
and those based on activities and events elsewhere.”
564 U.S. 873, 881 (2011) (plurality opinion). By contrast, the plurality explained, specific jurisdiction involves a “more limited form of submission to a State’s
authority,” whereby the defendant subjects itself “to
the judicial power of an otherwise foreign sovereign
to the extent that power is exercised in connection
with the defendant’s activities touching on the State.”
Ibid. (emphasis added).
Then, in a pair of decisions outlining the limitations on general (or all-purpose) personal jurisdiction, this Court reiterated the very different role
played by specific personal jurisdiction. In Goodyear
Dunlop Tires Operations, S.A. v. Brown, the Court
explained that specific jurisdiction “depends on
an affiliation between the forum and the underlying
controversy.” 564 U.S. 915, 919 (2011) (alterations
and quotation marks omitted). Thus, specific jurisdiction exists only where a defendant engages in continuous activity in the state “and that activity gave
rise to the episode-in-suit,” id. at 923, or where the
defendant commits “‘single or occasional acts’ in a
State [that are] sufficient to render [it] answerable in
that State with respect to those acts, though not with
respect to matters unrelated to the forum connections,” ibid. (quoting Int’l Shoe, 326 U.S. at 318).
Next, in Daimler, the Court reaffirmed that specific jurisdiction is available only where the defendant’s in-State activities “g[i]ve rise to the liabilities

9
sued on” (571 U.S. at 126) (quotation marks omitted),
or where the suit “relat[es] to that in-state activity”
(id. at 127).
Most recently, in BMS, this Court made it unmistakably clear that a court may not exercise specific jurisdiction unless the defendant has itself engaged in in-state activity that gives rise to the particular plaintiff’s own claims. The plaintiffs in BMS
included both California and non-California residents who sued a drug company in California on
product liability claims. The Court held that the outof-state plaintiffs could not invoke specific jurisdiction, because “all the conduct giving rise to [their]
claims occurred elsewhere.” 137 S. Ct. at 1782. The
Court explained that specific jurisdiction requires a
substantial connection between the plaintiff’s claims
and the defendant’s conduct in the forum and that,
“[w]hen there is no such connection, specific jurisdiction is lacking regardless of the extent of a defendant’s unconnected activities in the State.” Id. at 1781
(emphasis added).
In short, the Court has repeatedly held that specific jurisdiction is available only when the defendant’s suit-related contacts with the forum are sufficient to give that State a legitimate interest in regulating the actions by the defendant that gave rise to
the plaintiff’s claim.
2. The standard for assessing the sufficiency
of the defendant’s forum contacts.
This Court’s decision in BMS underscores that,
at a minimum, there must be some causal connection
between the defendant’s forum activity and the asserted claim for specific jurisdiction to comport with
due process. But as the petition explains (Pet. 11-22),

10
the lower courts remain divided over the degree of
connection that is required. Some, like the decision
below, hold—directly contrary to this Court’s decisions—that no causal relationship between a defendant’s forum contacts and the plaintiff’s own claims is
required; others hold that the in-forum activity need
only be a but-for cause of the plaintiff’s injury; others
require a more substantial relationship between the
defendant’s in-forum conduct and the asserted
claim—framing the test as “proximate” causation;
and others hold that some unspecified causal connection is required.
We agree with petitioner that this Court should
resolve the conflict among lower courts on causation.
Moreover, causation alone is only one element of
the necessary inquiry. The Court has repeatedly emphasized that the connection between the defendant’s in-forum activity and the asserted claim is relevant for two distinct reasons. First, fairness to the
defendant: a company that avails itself of the privilege of conducting business within a State may legitimately be subjected to jurisdiction only when those
in-state activities “give rise to obligations”—i.e., legal
claims. Int’l Shoe, 326 U.S. at 319.
Second, the substantial connection requirement
respects each State’s “sovereign power to try causes
in their courts. The sovereignty of each State . . . implie[s] a limitation on the sovereignty of all its sister
States.” BMS, 137 S. Ct. at 1780 (quoting WorldWide Volkswagen Corp. v. Woodson, 444 U.S. 286,
293 (1980)) (alterations in original). Requiring a defendant to “submit[] to the coercive power of a State
that may have little legitimate interest in the claims
in question,” ibid., would allow “the States[,] through
their courts,” to “reach out beyond the limits imposed

11
on them by their status as coequal sovereigns in a
federal system,” World-Wide Volkswagen, 444 U.S. at
292.
The standard governing exercises of specific
jurisdiction must therefore serve two functions. First,
it must ensure that the defendant’s forum activity is
sufficiently connected to the asserted claim, from a
causal standpoint, to conclude that the activity
created an “obligation” on the defendant’s part to
respond to the claim in the forum State’s courts. And
second, the analysis must ensure that the connection
between the forum State and the claim is
“substantial” (Walden, 571 U.S. at 284 (emphasis
added)) relative to any connection that other States
might have to that claim. This second step is
necessary to avoid allowing States with little or no
real interest in the dispute to displace States with a
much more significant interest.
A court analyzing the permissibility of exercising
specific jurisdiction should therefore proceed as follows:
•

Identify the defendant’s purposeful2 claimrelated activity within the forum;

•

Determine whether that activity gave rise to
the asserted claim; and

•

Assess whether the causal connection between the activity and the claim is sufficient
to create the “substantial relationship” required by due process.

As this Court explained in Walden, the “defendant himself”
(571 U.S. at 284) (quotation marks omitted) must be the one
who “form[s] the necessary connection with the forum State”
(id. at 285).
2

12
The latter inquiry, as explained above, should consider both (a) whether the in-forum activity is sufficiently causally connected to the claim to warrant a
conclusion that the defendant incurred obligations in
the forum State; and (b) whether the forum State’s
connection to the claim is substantial relative to the
connections to other States, such that permitting an
assertion of specific jurisdiction based on that activity will not intrude on the sovereignty of other States.
In most cases, this test is easy to apply. For example, where there is no causal link between the defendant’s in-forum activity and the claim being asserted, specific jurisdiction is impermissible. That
was the situation in Goodyear and BMS (and is also
the situation here)—the claims at issue were entirely
unrelated to the defendants’ in-forum activities.
Where, on the other hand, the defendant sold a
product in the forum State to a plaintiff who was injured by the product in the forum State, specific jurisdiction is usually proper. In such situations, there
is a strong causal link between the claim and the defendant’s in-forum activity—and the forum’s connection to the claim is substantial relative to other
States.
This Court’s decision in Burger King Corp. v.
Rudzewicz provides another example. The dispute in
that case arose out of a contract in which the defendant’s counterparty (the plaintiff in the lawsuit) was
located in the forum. The Court observed that the defendant negotiated the agreement by reaching out to
the forum, the contract itself indicated that the
plaintiff was located in the forum, and “the parties’
actual course of dealing repeatedly confirmed that
[the plaintiff’s] decisionmaking authority” resided in
the forum. 471 U.S. 462, 480-81 (1985). The defend-

13
ant’s purposeful interaction with the forum resident
plainly constituted a cause of the plaintiff’s claim.
Given these facts, the forum had a substantial connection with the dispute, and there could be no doubt
that the forum State’s assertion of jurisdiction would
not interfere with the sovereignty of other States
that might have a connection to the claim.3
In short, specific jurisdiction depends on a connection between a claim and the forum State that is
“substantial”—in both a causal sense and taking into
account the competing interests of different States in
adjudicating the matter. This Court should make
clear that both of these inquiries are part of the substantial-connection requirement—and reaffirm that
where, as here, there is no such substantial connection, specific jurisdiction is not available.
B. The Expansive Standard Applied Below
Extended Minnesota’s Authority Far
Beyond The Bounds Permitted By The
Constitution.
One key reason for a rigorous specific jurisdiction
standard is to prevent illegitimate exercises of a
State’s authority. The facts of this case provide a
clear example of such abuse.

As these examples indicate, a proximate relation between the
forum activity and the claim will virtually always permit the
exercise of specific jurisdiction, because there will be a causal
relationship and the relationship typically will be substantial if
the in-forum activity was a proximate cause of the claim. If the
causal relationship is not proximate, it is more likely that the
court will have to assess separately whether the defendant’s inforum activity nonetheless provides a sufficiently substantial
connection to permit the exercise of jurisdiction.
3

14
The car involved in the accident that is the subject of this lawsuit was not designed, made, sold, or
serviced by Ford in Minnesota. Respondent’s claims
thus relate entirely to Ford’s out-of-state conduct—
and therefore fail to satisfy the constitutional requirement of a substantial connection between the
defendant’s in-state activities and the claims in the
lawsuit.
The majority below held that specific jurisdiction
was proper because Ford generally markets its vehicles in Minnesota and “collected data on how its cars
performed” in Minnesota. Pet. App. 17a. But Ford’s
marketing conduct in Minnesota had nothing to do
with the claims in the lawsuit. Respondent’s claims
are product liability claims: He alleges that Ford was
negligent in its manufacturing and design of the car
in which he was injured and that Ford failed to warn
consumers about the airbag system. Even if these
claims arguably had some connection to Ford’s advertising—and they do not—the respondent did not
(and likely could not) allege that advertising in Minnesota is relevant to his own claims. In short, Ford’s
in-state marketing did not give rise to respondent’s
claims in any way. See Pet. App. 29a-30a (Anderson,
J., dissenting).
The same is true of Ford’s purported collection of
data from Minnesota drivers. For the reasons explained in the petition (at 24), the majority below
erred in basing specific jurisdiction on Ford’s general
collection of data from Minnesota drivers even
though Ford took no action in Minnesota involving
the actual vehicle at issue in this case or its owner.
See BMS, 137 S. Ct. at 1781 (holding that the fact
that defendant “conducted research in California on
matters unrelated” to plaintiff’s claims did not sup-

15
port specific jurisdiction). But even if data from Minnesota had somehow been included in the design
process for that particular vehicle’s airbags, that circumstance by itself could not support specific jurisdiction. Large companies like Ford may gather data
from many states—if not all of them—in order to inform the design process for new products. Subjecting
them to “specific” jurisdiction in each one of those
states would effectively create a new form of general
jurisdiction, undermining decisions like Daimler that
hold that general jurisdiction should be limited to
the fora in which a defendant is truly at home. See,
e.g., Adv. Tactical Ordnance Sys., LLC v. Real Action
Paintball, Inc., 751 F.3d 796, 803 (7th Cir. 2014)
(noting that finding specific jurisdiction over a company based on contacts that exist in every state
“would violate the principles on which Walden and
Daimler rest”).
In short, the in-state activities of Ford upon
which the majority below relied lacked a connection
to respondent’s claims, and thus do not permit Minnesota courts to exercise specific personal jurisdiction over those claims. The Court should therefore
grant review and repudiate the overly expansive approach to specific jurisdiction adopted by the court
below.
II. Exercising Specific Jurisdiction Over Matters That Do Not Relate Substantially To A
Defendant’s Forum Contacts Harms Businesses, Courts, And The Federal System.
Decisions such as the ruling below not only violate due process principles—they inflict severe burdens on the business community, the courts, and the
federal system. This Court’s intervention is urgently

16
needed to correct the erroneous standards applied by
lower courts and eliminate these unjustified burdens.
A. Overly Expansive Approaches To Jurisdiction Impose Greater Uncertainty On
Businesses.
This Court has long recognized that the standards governing specific jurisdiction “give[] a degree of
predictability to the legal system that allow[] potential defendants to structure their primary conduct
with some minimum assurance as to where that conduct will and will not render them liable to suit.”
World-Wide Volkswagen, 444 U.S. at 297. Companies
know that they generally have a “due process right
not to be subjected to judgment in [the] courts” of a
State other than their home State, or States, unless
they have affirmatively established contacts with the
State itself that make them subject to specific jurisdiction there. Nicastro, 564 U.S. at 881; see also
Walden, 571 U.S. at 284.
This “[p]redictability is valuable to corporations
making business and investment decisions.” Hertz
Corp. v. Friend, 559 U.S. 77, 94 (2010). For example,
“[i]f a business entity chooses to enter a state on a
minimal level, it knows that under the relationship
standard, its potential for suit will be limited to suits
concerning the activities that it initiates in the
state.” Carol Rice Andrews, The Personal Jurisdiction Problem Overlooked in the National Debate
About “Class Action Fairness,” 58 S.M.U. L. Rev.
1313, 1346 (2005).
The approach to specific jurisdiction embodied in
the decision below is completely unpredictable, making it impossible for corporations to structure their
affairs to limit the number of jurisdictions in which

17
they can be sued by any plaintiff residing anywhere.
Many corporations advertise their products in a large
number of states—and often do so nationwide. If
merely advertising products in a forum were deemed
sufficient to give rise to specific jurisdiction on any
claim related to those products—even products made
and sold outside the state—a corporation could be
sued throughout the country when the company’s instate activity had no connection to a particular claim.
The respondent here, for example, could on that theory sue in California, Alaska, Missouri, or Texas. Yet
“[s]uch exorbitant exercises of all-purpose jurisdiction would scarcely permit out-of-state defendants”
to structure their affairs to provide some assurances
about where they could be sued. Daimler, 571 U.S. at
139.
Applying specific jurisdiction in such an unpredictable and indiscriminate manner would be unfair
to businesses that do business throughout the country and irreconcilable with the Due Process Clause.
See Nicastro, 564 U.S. at 885 (explaining that
“[j]urisdictional rules should avoid the[] costs [of unpredictability] whenever possible”); Burger King, 471
U.S. at 475 n.17 (explaining that due process is violated when a defendant “has had no ‘clear notice that
it is subject to suit’ in the forum and thus no opportunity to ‘alleviate the risk of burdensome litigation’
there” (quoting World-Wide Volkswagen, 444 U.S. at
297)). And consumers would ultimately bear the increase in legal costs produced by this unbridled approach to specific jurisdiction.4

The fact that the accident occurred in Minnesota does not
cabin the overbroad approach to specific jurisdiction reflected in
the decision below. The accident had no connection to Ford’s in4

18
B. Permitting Specific Jurisdiction Without A Substantial Connection Between
The Forum State And The Claim Would
Intrude On Other States’ Sovereignty.
The minimum-contacts requirement for exercising specific jurisdiction “acts to ensure that the
States[,] through their courts, do not reach out beyond the limits imposed on them by their status as
coequal sovereigns in a federal system.” World-Wide
Volkswagen, 444 U.S. at 292.
But that is exactly what States would be able to
do under the approach to specific jurisdiction employed below. That test permits a State with no real
interest in the defendant’s allegedly tortious conduct
to intrude on the sovereignty of those States that
have a substantial connection to the claim and therefore a real interest in adjudicating it.
There are no offsetting benefits to permitting
this serious erosion of federalism. States have no legitimate interest in asserting specific jurisdiction so
expansively and inserting themselves into matters or
disputes that are much more closely connected to
other States. And a State’s ability to adjudicate
claims based on a defendant’s in-State activities fully
vindicates a State’s interest in protecting its citizens
and regulating conduct within its borders. See, e.g.,
state conduct, and therefore Ford could not structure its conduct to avoid being haled into court in any forum where an accident happens to occur. And exercising specific jurisdiction
based on the location of an accident rather than the defendant’s
conduct is impermissible in any event: this Court has “consistently rejected attempts to satisfy the defendant-focused ‘minimum contacts’ inquiry by demonstrating contacts between the
plaintiff (or third parties) and the forum State.” Walden, 571
U.S. at 284.

19
Walden, 571 U.S. at 284. The broader approach taken by the court below is therefore not necessary to
ensure that companies may be held accountable for
conduct actually taking place in Minnesota. Rather,
it serves only to consume the resources of the courts
of that State in deciding disputes that—like this
case—have only random or “fortuitous” connections
to Minnesota (World-Wide Volkswagen, 444 U.S. at
295) while displacing the authority of States with a
greater interest in the dispute.
CONCLUSION
The petition for a writ of certiorari should be
granted.

Respectfully submitted.
STEVEN P. LEHOTSKY
JONATHAN D. URICK
U.S. Chamber
Litigation Center
1615 H Street, NW
Washington, DC 20062
Counsel for Amicus Curiae the Chamber of
Commerce of the United
States of America
PETER C. TOLSDORF
Manufacturers’ Center
for Legal Action
733 10 St., NW
Suite 700
Washington, DC 20001
Counsel for Amicus Curiae the National Association of Manufacturers
H. SHERMAN JOYCE
LAUREN S. JARRELL
American Tort Reform
Association
1101 Connecticut Ave,
NW, Suite 400
Washington, DC 20036
Counsel for Amicus Curiae the American Tort
Reform Association
OCTOBER 2019

ANDREW J. PINCUS
Counsel of Record
ARCHIS A. PARASHARAMI
DANIEL E. JONES
Mayer Brown LLP
1999 K Street, NW
Washington, DC 20006
(202) 263-3000
apincus@mayerbrown.com
Counsel for Amici Curiae

